                          Railroad Retirement Board-Office of Inspector General
                                   Semiannual Report to the Congress
                                       April 1 - September 30, 2001




                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               2

SIGNIFICANT ISSUES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     4

OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    9
Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            10
Audits: Management Decisions and Implementation . . . . . . . . . . . . . . . .                                       24

OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   25
Accomplishments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           26
Investigative Cases . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           27
Representative Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               28
Affirmative Civil Enforcement Program . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         36
Hotline Calls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     37

LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . . . .                                             38

APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              39
(B) OIG Reports Issued Involving Questioned Costs and
    Recommendations That Funds Be Put To Better Use . . . . . . . . . . . . .                                         41
(C) Report on Receivables, Waivers, and Recoveries . . . . . . . . . . . . . . .                                      43
(D) RRB Management Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        44
(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . . . . . .                               50
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




                        EXECUTIVE SUMMARY

This Semiannual Report describes the activities of the Office of Inspector General
(OIG) at the Railroad Retirement Board (RRB) during the six month period ending
September 30, 2001.


As required by the Government Information Security Reform Act, the OIG
performed a security assessment of the RRB’s mainframe and local area network
information systems with the assistance of an independent contractor. The OIG
also examined agency actions to address previously issued reinvention proposals
for improving the management of agency operations. This office continued to
monitor the activities of the agency’s Investment Committee as well as the
proposed legislative changes to amend the Railroad Retirement Act.


The Office of Audit continued its oversight operations of the development of the
agency’s document imaging system to ensure the agency is developing adequate
controls in the system and is following its system development policies. Other
audits and reviews examined a variety of areas including financial accounting
issues, debt recognition and collection, the disability examination services
contract, the RRB’s cost of living mass adjustment process and the separation
allowance disqualification process.


The Office of Investigations achieved 29 convictions, 7 indictments and
informations, and $1,554,316 in recoveries, restitutions, fines, civil damages,
penalties, and potential economic loss prevented.



                                         -1-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001




                               INTRODUCTION


Office of Inspector General


The Office of Inspector General (OIG) has the responsibility for promoting
economy, efficiency and effectiveness in the programs of the Railroad Retirement
Board. The office is also charged with the detection, prevention and elimination of
fraud, waste and abuse in agency operations. To accomplish its mission, the OIG
conducts audits, management reviews, and investigations.


The Railroad Retirement Solvency Act of 1983 established the Office of Inspector
General at the Railroad Retirement Board by naming the agency as “one of such
establishments” identified under Section 2 of the Inspector General Act of 1978.
The Inspector General Act Amendments of 1988 added the RRB to the list of
agencies covered by the Inspector General Act.


In fiscal year 2001, the OIG had 54 employees and an operational budget of
$5,700,000. The organization has three major components: the immediate office
of the Inspector General, the Office of Audit, and the Office of Investigations. The
office conducts its operations from two locations: the headquarters of the Railroad
Retirement Board in Chicago, Illinois, and an investigative field office in
Philadelphia, Pennsylvania.




                                          -2-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




Railroad Retirement Board

The Railroad Retirement Board (RRB) is an independent agency in the Executive
Branch of the Federal government that is headed by a three member Board
appointed by the President of the United States, with the advice and consent of
the Senate. One member is appointed upon the recommendation of railroad
employers, one is appointed upon the recommendation of railroad labor
organizations, and the third, who is the Chair, is appointed to represent the public
interest.


The agency administers comprehensive retirement-survivor and unemployment-
sickness insurance benefit programs for the nation's railroad workers and their
families, under the Railroad Retirement and Railroad Unemployment Insurance
Acts. The RRB also has administrative responsibilities under the Social Security
Act for certain benefit payments and Medicare coverage for railroad workers.


During fiscal year (FY) 2000, the RRB paid $8.3 billion in retirement and survivor
benefits to approximately 724,000 beneficiaries, while net unemployment and
sickness insurance benefits of $79 million were paid to almost 35,000 claimants.
The RRB also administers its own Medicare Part B program through a single
carrier, Palmetto GBA. The carrier made payments totaling $695 million to
provide medical insurance benefits for 650,000 beneficiaries.




                                         -3-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001



SIGNIFICANT ISSUES


                 PROPOSED LEGISLATIVE CHANGES

In its two previous semiannual reports to Congress, the OIG provided summaries
of its review of pending legislative changes to the Railroad Retirement Act.
During this reporting period, the OIG reviewed the agency’s contingency planning
efforts to assess the RRB’s ability to implement the provisions of the proposed
legislation.


Proposed changes provide for improvements in widow(er) benefits, the
elimination of maximum annuity provisions, the restoration of an unreduced
annuity feature for those retiring at age 60 with 30 years of service, and the
reduction of a vesting provision to five years of service (for service credited after
December 31, 1995). The financing provisions of the bill include the
establishment of an independent trust with the responsibility for the investments
that support retirement annuities, a pre-determined structure for establishing the
tier 2 tax rates and the elimination of the supplemental annuity
tax. Finally, the proposed legislation also provides that a private disbursing agent
be used to pay RRB beneficiaries rather than the Department of the Treasury, as
is the current practice.


The OIG has determined that current agency planning efforts appear adequate to
provide reasonable assurance that the RRB could implement the pending
legislation if enacted. The agency anticipates that the current version of the
legislation will be modified to eliminate retroactive or immediate effective dates
for benefit changes to permit sufficient time for implementation.

                                          -4-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




The OIG recommended that agency management assign specific planning
responsibilities to appropriate managers and revisit the original cost projections
for implementation. Management agreed and has, in fact, completed the
assignments for planning responsibilities as well as an update to the initial cost
projections.


As of September 30, 2001, the House of Representatives had approved
legislation, and the Senate was considering a revised version of the House bill.
                       REINVENTION PROPOSALS
Over the last six years, the Office of Inspector General has provided the agency’s
Board Members with a series of Reinvention Proposals that focused on major
initiatives for significant changes in the management of agency operations. The
proposals recommended that the Board Members concentrate their efforts on
revising the organizational structure of the agency and significantly reducing the
number of field service staff. Later proposals related
to the primary mission of the agency associated with tier 1 benefits and to a
change in the basic structure of the agency.


During this reporting period, the OIG reviewed the previous recommendations in
light of the current environment and reviewed agency actions taken to address
recommended changes. Although the Board Members have made several
revisions to the organizational structure, they remain involved in daily
administrative tasks rather than serving as an advisory and strategy-oriented
panel. The RRB has implemented a 33% reduction in the number of field offices,
but the agency employs about the same number of employees in its field service
as it did six years ago. The OIG remains convinced that a


                                          -5-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001




centralized headquarters service that uses expanded information technology to
deliver information and services should be adopted by the RRB.


No action has been taken on the remaining proposals. The OIG recommended
that the RRB identify programs and operations that duplicate activities that are the
primary responsibility of the Social Security Administration (SSA) and transfer
these activities to the SSA over a three year period. The objective of transferring
activity to the SSA should be to include all programs that SSA would normally
provide without diminishing the benefits protection for railroad workers.


Another Reinvention Proposal recommended a change in agency status to a
government corporation headed by an independent Chief Executive Officer. The
Board Members have not pursued any action on this item.


The OIG strongly believes that the Reinvention Proposals have become more
relevant with the passage of time and recommended that the Board Members
initiate efforts for implementation.


                          COMPLIANCE WITH THE
   GOVERNMENT INFORMATION SECURITY REFORM ACT

This law was enacted to ensure the security of unclassified and national security
information systems. It requires annual agency reviews of the program
management of information security programs, annual agency reports to the
Office of Management and Budget (OMB), and annual evaluations of agency
information security by the Office of Inspector General.


                                          -6-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001




The OIG performed a security assessment of the RRB’s mainframe and local area
network information systems with the assistance of an independent contractor.
The review included the railroad retirement, unemployment and sickness
insurance programs as well as tests of the general and application controls for
these programs. Auditors also tested controls for the agency’s financial
management systems. System scanning and penetration testing were performed
to determine if the agency is vulnerable to unauthorized access to RRB systems.


An examination was also made of the security practices, policies, procedures and
application-specific security controls to prevent the interruption of services, the
compromise of resources, or any other adverse effects on the operations of the
RRB network.


Assessment results indicated weaknesses related to password management,
security training, performance of periodic risk assessments, implementation of a
security plan, mainframe security and desktop application security. The RRB’s
Chief Information Officer has initiated action to appoint a Chief Information
Security Officer and has completed action on many
recommendations contained in the report. Remaining recommendations are
being addressed by corrective actions or are under discussion.


The RRB’s report and the results of the OIG evaluation were submitted to OMB
with the agency’s annual budget submission on September 7, 2001.




                                          -7-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




                        INVESTMENT ACTIVITIES

During this semiannual reporting period, the OIG continued to monitor and
comment upon the activities of the RRB’s Investment Committee. As in the
previous six months, the agency made only a few investments. This office
provided RRB management with suggestions for improved reporting on
investment activity and continued to stress the need for a more consistent, long-
term investment strategy.


                   EXAMINING THE INEFFICIENCIES
                    OF THE FEDERAL WORKPLACE

The OIG also issued a report that addressed the current procedures for handling
complaints concerning personnel matters filed by non-union Federal employees
and offered recommendations for improvement. At present, employees can either
consecutively or simultaneously have claims that are based primarily on the same
set of facts adjudicated by the Equal Opportunity Employment Commission, the U.
S. Department of Labor and the Merit Systems Protection Board. Because the
current process is replete with duplication of effort and delay, the complaining
employee and agency are needlessly burdened, and meritorious claims are not
resolved in a timely manner. The present bureaucracy accommodates employees
who do not perform their jobs, and management is unable to efficiently deal with
the problem and ensuing burden of litigation. The report suggested changes to
increase efficiency and eliminate duplication of effort. The purpose of the report is
to generate a meaningful discussion to resolve the issues which are of great
importance to both government management and employees.


                                         -8-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




                            OFFICE OF AUDIT

The Office of Audit (OA) conducts reviews to promote economy, efficiency, and
effectiveness in the administration of RRB programs, and detect and prevent
waste, fraud, and abuse in such programs. Through the Inspector General, the
office ensures that the Board Members and the U.S. Congress are informed of
current and potential problems in the RRB’s programs and operations, and
advised of recommended improvements, as well as the status of corrective
actions. OA examines programmatic, financial, and administrative aspects of
RRB operations.


During this reporting period, OA issued its first assessment reports of the RRB’s
mainframe and local area network information systems with the assistance of an
independent contractor. Auditors also continued major monitoring activities of the
development of the agency’s document imaging system, proposed legislative
changes to the Railroad Retirement Act, and the activities of the RRB’s
Investment Committee.


Descriptions of audits and reviews performed during this reporting period follow.




                                         -9-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




Review of Internal Control Over Financial Accounting for
Obligations, Expenditures and Accounts Payable

In its financial statements for FY 2000, the Railroad Retirement Board recognized
approximately $19 million in goods and services procured in support of agency
administrative activities. This figure excluded the salary and benefits of agency
personnel. The purpose of this audit was to determine if internal control was
adequate to ensure proper accounting and reporting of administrative obligations,
expenditures and account payables.


Auditors determined that the internal controls over these administrative activities
were generally adequate to ensure the reliability of financial reporting and to
permit the preparation of financial statements that are free from material
misstatement. However, weaknesses in internal control were identified that
adversely impact the agency’s ability to ensure compliance with laws and
regulations and safeguard assets.


This audit identified two agreements that were executed using procedures
intended for training procurements rather than being handled as service contracts.
Service contracting is subject to a more thorough review and approval process.
Payments totaling $88,000 were disbursed without being subject to review for
compliance with the Federal Acquisitions Regulations and appropriations law. In
addition, the agency’s obligation to pay an additional $6,000 in vendor travel
remained unrecorded at the end of the fiscal year.




                                        -10-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




This review also disclosed a lack of separation of duties that permitted a few
individuals to execute all key aspects of disbursement transactions which
increases the RRB’s risk of loss from error or fraud.


Management officials have issued memoranda to agency personnel concerning
their responsibilities in the procurement process and obtained the opinion of legal
counsel about specific appropriation management issues. Management also
agreed to implement corrective actions to strengthen internal control to ensure the
necessary separation of duties in disbursement-related activities.



Review of Railroad Retirement Board’s Document Imaging
Initiative for Railroad Retirement Act Programs

During this semiannual reporting period, OIG auditors continued their ongoing
review of the document imaging system at the Railroad Retirement Board.
Previous audits of the system identified several deficiencies in the agency’s
procedures and controls related to the reliability of imaged documents, access to
the imaging system, system backup and recovery, and retention of the system’s
paper input documents.


This audit presented the results of the OIG’s examination of the design and
implementation of document imaging for Railroad Retirement Act (RRA)
programs. The objective of this third review of document imaging issues was




                                        -11-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




to ensure that the agency is developing adequate controls in the system, and is
following its system development life cycle policies.


Auditors determined that the RRB is, in fact, including adequate controls in
designing the RRA imaging system. However, the agency is behind schedule in
implementing this system; some delay has resulted from changes made to the
imaging system software. RRB management now expects to complete a revised
implementation plan by December 31, 2001. Problems were identified with the
tracking of cost data for the document imaging project; program managers have
agreed to make improvements in tracking this data.


The RRB is not in compliance with document retention regulations; the agency
has changed its processes for the maintenance of records but has failed to
update its record disposition schedule. RRB program officials agreed to submit a
revised retention schedule to the National Archives and Records Administration to
address the document retention issue.


These same officials ignored an earlier decision by the document retention
working group to retain some long-term paper documents for seven years from
the date that a document is scanned into the system. The program officials
decided not to image certain applications without consulting the working group
representatives. Another problem exists because RRA paper applications and
the supporting documentation for these long-term documents are maintained
separately. The RRB Records Officer stated that these documents are no




                                        -12-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001




longer in the claim files and, therefore, are unscheduled records that cannot be
sent to the Federal Records Center without special approval. Auditors believe
there are no controls over access to many of these documents and recommended
that the RRB (1) continue to create claim folders and (2) retroactively create claim
folders for RRA applications cited in the audit. Program officials responded that
new folders will not be retroactively created unless a problem is identified
concerning compliance with the new retention schedule.



Timeliness of Desk Audit and Vacancy Announcement
Processing by the Bureau of Human Resources

The OIG conducted this review in response to recent concerns raised by RRB
management about the processing timeliness of vacancy announcements and
desk audits by the agency’s Bureau of Human Resources. This bureau services
the RRB’s personnel management needs for 1,100 full and part-time workers at
headquarters and in 56 field offices throughout the country. The bureau operates
with a staff of ten full-time and five part-time employees.


Auditors found that the total time required for processing vacancy announcements
had increased from 108 days in fiscal year (FY) 1977 to 139 days in FY 2000.
Most of this increase was attributed to an increase in time between receipt of a
request to fill a position and the initial posting of the vacancy announcement.




                                         -13-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




The time required for processing desk audits, which includes a detailed study of
actual job duties for comparison with the job description on which the present
salary grade is based, had also increased since FY 1998. The time elapsed
between the receipt of a request for a desk audit and the start of the audit
increased from 93 days in FY1998 to 141 days in FY 2000. The time required for
completing a desk audit and reporting the results did not vary greatly.


During the past five years, staffing in the Bureau of Human Resources decreased
by 25%, and included the loss of some very experienced personnel. As a result,
the RRB currently has one full-time human resources staff member for every 84
agency employees; the average ratio for 112 other Federal agencies is 1 to 42.
Auditors concluded that the decreased staffing level and an increase in the
number of vacancy announcements had caused processing delays. The Bureau
of Human Resources requested an increase in its staffing allocation and funding
to outsource selected services. These changes have been approved and are in
the process of being implemented.


Auditors did recommend that the Bureau of Human Resources establish
performance objectives to measure timeliness of its activities and report/track
these goals in its monthly administrative reports. The Acting Director favors the
development of such goals but has deferred action until new staff receives training
and experience to perform at a productive level.




                                        -14-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001




Railroad Retirement Act (RRA) Program Debt Recognition
and Collection Experience

In FY 2000, the RRB established new accounts receivable due from the public
totaling $87.3 million including principal and interest, of which $37 million is
attributable to non-debt transactions. Auditors stated that the agency’s large
balance of receivables has resulted from the agency policy of maintaining an
inventory of old, difficult to collect debt for up to ten years. They also believe that
the inclusion of the non-debt transactions inflates reports of debt recognition and
collection, and recommended that the practice be discontinued because they do
not meet the criteria for receivable recognition. Such transactions include
returned benefit payments, reclamations and routine Social Security adjustments.
It is the opinion of the auditors that the continued recognition of these transactions
as debt will adversely impact the public perception of agency program
performance and prevent meaningful comparisons with other entities.


Auditors also cited another weakness in current procedure that does not provide
for internal review or publication of measures of debt recovery performance, such
as delinquency, turnover, clearance and cash collection rates that are traditionally
used to evaluate debt management activities. Auditors recommended that the
Bureau of Fiscal Operations prepare and circulate measures of debt recovery
performance at least annually.


The RRB’s Chief Financial Officer disagreed with the auditors’ position and
stated that the current agency process used for recognizing debt and related



                                          -15-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




accounts receivable is appropriate and within the scope of the Statements of
Federal Financial Accounting Standards. He emphasized that the agency’s
current procedures provide effective management control. He did, however,
agree to report annually on key measures of debt management to the Board
Members and agency managers.



Review of the RRB’s Contract with Comprehensive Health
Service, Inc. For Disability Examination Services

The Railroad Retirement Act mandates the payment of disability benefits to
railroad workers. The RRB uses consultative examinations and/or ancillary tests
as supportive evidence in making a determination of disability under the Federal
guidelines for either a current or former railroad employee or his/her dependent.
The RRB orders only the specific type of examinations and tests needed for a
disability determination. The agency currently contracts with Comprehensive
Health Service, Inc. (CHS) for disability examination services. From fiscal year
1999 through March 2001, the RRB paid CHS over $4.8 million for the
performance of 26,387 examinations.


The RRB has contract monitoring procedures to ensure that CHS complies with
all technical requirements defined in the scope of work. This review determined
that improvements are needed for more effective monitoring of CHS’
performance. The contractor is not meeting the timeliness performance criteria in
the contract; in fact, the timeliness criteria have only been met in one month, April
1998, since the inception of the contract. These delays in

                                         -16-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




completing examination services could adversely affect the RRB’s disability
performance goals. Auditors recommended that the RRB should determine the
causes for the delays and recommend improvements to assist CHS in meeting
time frames. Responsible program officials concurred and will conduct a special
study of cases that did not meet the standards.


Auditors also cited the need for program officials to separately track the
timeliness of urgent and routine medical examination reports because each type
requires different timeliness standards. Again, agency officials agreed to request
programming changes to permit improved tracking and will report the data in
monthly reports by the end of the calendar year.


Finally, auditors expressed concern over (1) the lack of specific criteria in the
contract to stipulate the acceptable percentage of CHS medical examination
reports that the RRB can reject, and (2) the lack of RRB program reporting on the
number of rejected examination reports. Program officials agreed to perform a
review of rejects to determine the causes and to identify any opportunities for
reducing the number of rejects.



Review of the Quality of the Debt Recognition and Collection
Process for Railroad Retirement Act Overpayments

The Railroad Retirement Board administers the health and welfare provisions of
the Railroad Retirement Act (RRA) which provide retirement-survivor benefits for
eligible railroad employees, their spouses, widows and other

                                         -17-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




survivors. During FY 2000, approximately 724,000 annuitants received benefits
totaling $8.3 billion under the RRA.


Auditors selected RRA overpayments established during FY 1998 that exceeded
$25,000 for detailed review and tracked the progress of collection in each of the
78 cases from the establishment date of the debt through the appeals process
and any subsequent collection action. A total of 48 handling errors were identified
which involved miscalculation of the overpayment amount, reopening of a final
decision contrary to applicable regulation, delay or error in recognizing the need
for re-adjudication, and inadequate communication between RRB units with debt
recovery responsibilities. Auditors concluded that the agency’s debt recovery
process suffers from inadequate quality assurance procedures that adversely
impact the quality of customer service and the efficiency of program operations.
As a result of this audit, the agency’s Office of Programs is conducting a review
and analysis of the erroneous cases to identify necessary processing changes.


The audit revealed that overpayment letters issued to annuitants did not routinely
include clear, concise and complete information concerning the circumstances of
the overpayment. Letters advising debtors of the decision on their request for
waiver were sometimes brusque and did not properly address all pertinent issues
and circumstances.


Auditors also found that the RRB has collected and continues to assess and
collect overpayments that were established due to a misapplication of certain
provisions of the Social Security Act. In 1995, the agency’s Board Members



                                        -18-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




ended the practice of withholding RRA benefits from incarcerated felons.
However, the agency did not return benefits that were withheld prior to February
1995 and continued to collect overpayments that had previously been assessed.
New overpayments for periods of incarceration that pre-dated the change in
policy continued to be assessed. Auditors recommended that the RRB restore
benefits withheld from annuitants during periods of incarceration.



Review of the RRB’s Handling of the Payment Rate
Entitlement History System’s Relational Edits

The RRB uses the Payment Rate Entitlement History (PREH) mainframe
computer database as the primary source for accurate and complete benefit data.
PREH supports the agency’s retirement and survivor benefit payment process as
well as actuarial projections and valuations. The database receives data from
other RRB automated systems and creates an historical record of retirement and
survivor benefit payment, rate and entitlement information. The system stores,
updates and displays award-related and statistical data, and reflects historical
activity for entitlement and payment records processed in June 1995 or later.


Benefit terminations, address changes, rate changes or other award activities
necessitate changes to the PREH record. Extensive edits are designed into
PREH processing to help ensure that data is properly recorded. PREH edits
maintain the integrity of the historical record by ensuring that the PREH




                                        -19-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001




update system works properly. These edits check the consistency of data
between fields. For example, relational edits check that the type of annuity is
consistent with the annuity beginning date and that the rate payable is consistent
with the underlying component amounts. Relational editing is performed when
records are viewed on-line or corrected by examiners. Edit rejects (specific
records with data errors) are displayed on-line for viewing and correction. In
addition to the system’s daily editing of record corrections, the RRB performs
relational editing of all records in the PREH database at least once a year.


During their review, auditors determined that improvements are necessary to
improve the PREH relational edit review and correction process. Examiners do
not review and correct all PREH relational edit rejects that will likely detect benefit
payment errors. Auditors recommended, and program officials agreed, that a
comprehensive review, analysis and correction of PREH relational edits should
be performed. The report also included recommendations concerning correction
of specific relational edits; officials agreed to take corrective action on the
identified problems.



Review of the RRB’s Cost-of-Living Mass Adjustment
Process

Public Law 92-336 provides for an automatic annual cost-of-living adjustment
(COLA) to old age, survivor and disability insurance benefits beginning in 1975. In
December 2000, the RRB’s cost-of-living operation adjusted the



                                          -20-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




monthly rates of 671,381 beneficiaries, with a net increase of over $16 million in
railroad annuities.


The RRB uses the cost-of-living formula specified by the Social Security Act,
which in general is equal to the percentage increase in the Consumer Price Index
(CPI) for urban wage earners and clerical workers from the third quarter of one
year to the third quarter of the next year. When the CPI data is received by the
agency, the mechanical cost-of-living program updates the appropriate computer
benefit payment systems. Any cases that are rejected from the system are then
forwarded to claims examiners for analysis and correction.


The RRB uses the Payment Rate and Entitlement (PREH) System to store
entitlement and rate history information for all RRB beneficiaries. The results of
each annual COLA are also stored in the PREH system. It is critical that
information in the PREH system be accurate and up-to-date to ensure that the
RRB can efficiently process cases in a timely manner.


This report recommended that improvements be implemented to enhance the
effectiveness and efficiency of the COLA process. Auditors identified that the
mechanical program does not always accurately compute the rates for survivor
family groups, and the PREH system does not always contain accurate
information on the cost-of-living reject codes or the dates of reject or review
corrections. Program officials agreed to take corrective actions to address the
identified weaknesses.




                                         -21-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




Review of Separation Allowance Disqualification Periods

A separation allowance is a payment by an employer to an employee in
connection with the severing of the employment relationship. The Railroad
Unemployment Insurance Act (RUIA) disqualifies employees who receive
separation allowances from receiving unemployment and sickness insurance
benefits. The disqualification lasts approximately as long as the employee would
have worked to earn the amount of the separation allowance.


When an employee requests unemployment or sickness insurance benefits, the
employee is required to report receipt of a separation allowance on his or her
application and subsequent claim forms. RRB field office and headquarters
personnel process these applications and claims forms, and ensure payment stop
codes or separation allowance disqualification periods are established on
employee records. Prior to paying RUIA benefits, the RRB notifies employers of
their employees’ claims for benefits, which allows an opportunity for employers to
verify the accuracy of the claims. Employers can challenge the RRB’s payment of
RUIA benefits in instances in which employees received separation allowances.


This audit concluded that once separation allowance data is entered into RRB
computer systems, computer applications are effective in accurately calculating
separation allowance disqualification periods and in preventing and detecting
erroneous RUIA benefit payments. The RRB should, however, improve controls to
ensure that separation allowance data is input into RRB computer systems and
disqualification periods are established in a timely



                                        -22-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                            April 1 - September 30, 2001




manner. Current processing could allow some benefits to be erroneously paid
and some overpayments to be undetected. Auditors recommended that the
agency should use the separation allowance data filed by employers to establish
separation allowance disqualification periods; management concurred.




                                       -23-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




AUDITS: MANAGEMENT DECISIONS AND IMPLEMENTATION


Through a Memorandum of Understanding, the Director of Administration
transferred the responsibility for managing the open audit follow-up system to the
Office of Inspector General. This system tracks the status of corrective actions for
all audit recommendations. Procedures are in place to ensure that the agency is
in compliance with all applicable regulations. Office of Management and Budget
Circular No. A-50 (Revised) and the Inspector General Act Amendments of 1988
require the reporting of management decisions and corrective actions for all audit
recommendations.


Management Decisions
Recommendations requiring a management decision on April 1, 2001                  0
New recommendations issued during this period
  pending a management decision                                                   3
Previous recommendations for which a management
  decision was made                                                               0
Number of recommendations pending a management decision
  on September 30, 2001                                                           3


Corrective Actions
Prior recommendations requiring action on April 1, 2001                          77
New recommendations issued during this period                                    99
Recommendations for which corrective actions
  were completed from April 1 - September 30, 2001                              - 67
Recommendations pending final action on September 30, 2001                      109

                                        -24-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




                     OFFICE OF INVESTIGATIONS


The Office of Investigations (OI) focuses on RRB benefit program fraud. OI's
primary objective is to identify, investigate, and refer for prosecution and monetary
recovery action, cases of waste, fraud and abuse in RRB programs. Through its
investigations, OI also seeks to prevent and deter program fraud. In order to
maximize the effect of its resources, OI continues to pursue cooperative
investigative activities and coordination with other Inspectors General and law
enforcement agencies, which include the Social Security Administration-Office of
Inspector General, the Federal Bureau of Investigation (FBI), the U.S. Secret
Service, the Internal Revenue Service, and the Postal Inspection Service.


On September 17, 2001, the Railroad Retirement Board-Office of Inspector
General received notification that the FBI was in need of investigative personnel
to assist in New York with the investigation of the terrorist attack. In response to
this request, on September 30, OI detailed five special agents for a period of 22
days to assist in interviews, evidence recovery and analysis. These personnel
returned to the office on October 21, and five different agents were detailed for
one week. We have also offered to provide personnel to conduct analysis
regarding the financial crimes aspect of the investigation, and will continue to
assist the FBI in its efforts.




                                         -25-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                            April 1 - September 30, 2001




                                                       04/01/01 -
INVESTIGATIVE ACCOMPLISHMENTS                          09/30/01         FY 2001

Convictions                                                     29             51

Civil Judgements                                                29             53

Indictments/Informations                                        21             37

Investigative Recoveries                                $ 170,134       $ 297,792

Restitutions and Fines                                  $ 632,598       $ 942,219

Civil Damages and Penalties                             $ 455,759       $ 761,637

Potential Economic Loss Prevented (PELP)                $ 295,825       $ 754,256

Community Service Hours                                        430            580

Disciplinary/Administrative Action                                  1             1

Civil Complaints                                                12             24

Criminal Complaints                                                 2             5

Arrests                                                             0             2
Subpoena Service:

Inspector General                                                   5          17

Federal Grand Jury                                              26             32

Trial                                                               0             0

Program Fraud Civil Remedies Act Referrals                          0             5

U.S. Attorney Referrals                                        203            404




                                       -26-
                 Railroad Retirement Board-Office of Inspector General
                          Semiannual Report to the Congress
                              April 1 - September 30, 2001




INVESTIGATIVE CASES

During this semiannual period, OI opened 164 investigations and closed 176
cases. The major sources of case referrals are illustrated below.

                                                 Hotline/Informants - 7%
     RRB Programs - 68%



                                                            OIG Developed - 12%



                                                             Federal/State Agencies - 3%



                                                           RRB Computer Matches - 10%




OI's current caseload totals 536 criminal matters, representing over $12 million in
fraud against the RRB.

       Unemployment - 174 cases
          $727,000                                          Disability - 138 cases
                                                                $1,233,000




                                                               Railroad Employers -14 cases
                                                                        $3,373,000
                                                              Spouse/Dependent - 17 cases
                                                                      $358,000
                                                                 Representative Payee - 17 cases
                                                       Sickness - 25 cases
           Retirement - 135 cases
                                                           $109,000
                $5,079,000
                                                  Other - 16 cases
                                                     $1,047,000


                                          -27-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




REPRESENTATIVE INVESTIGATIONS

                        Railroad Employer Fraud

OI investigates cases involving false reporting by railroad employers. Such cases
are often worked jointly with the Internal Revenue Service under the direction of
the Department of Justice Tax Division attorneys. These cases can involve
complex fraud schemes which result from collusion among railroad employers,
retired railroad workers and third party employers. These schemes have a
substantial impact on the agency’s trust funds because the retirees are receiving
benefits to which they are not entitled and, at the same time, the employers are
not submitting contributions to the trust funds as required.

By law, railroad employers are required to advise the agency of changes in their
operations, organization or ownership that would affect their status for coverage
under the Railroad Retirement and Railroad Unemployment Insurance Acts. The
OIG has found that, due to a minimal policing of employers by the agency, it is
very easy for employers to assign employees to affiliated business entities and
report them as being covered under the Federal Insurance Contributions Act.
Some employers have transferred employees to temporary employment agencies
or payroll servicing companies to carry out the fraud.

OI continues to review the results of audits conducted by the agency’s Audit and
Compliance Division to identify fraud matters related to railroad
employers. OI currently has 14 open cases involving allegations related to
railroad employers.




                                        -28-
         Railroad Retirement Board-Office of Inspector General
                  Semiannual Report to the Congress
                      April 1 - September 30, 2001




•   As the result of a criminal investigation conducted with the Internal
    Revenue Service (IRS), the Office of Investigations (OI) identified that a
    railroad employer had considered some workers to be covered under
    the Social Security Act (SSA). The employer had filed false documents
    with the RRB and failed to file proper forms with the IRS to avoid paying
    required payments under statutes administered by the agency.

    As a result of the investigation, the employer was ordered to file
    compensation adjustment reports for the years 1989-1993. The OIG
    reviewed the reports for accuracy and determined that each employee
    reported on the forms had identical SSA and RRB earnings on the
    RRB’s Employment Data Maintenance automated system. In addition,
    the SSA earnings records had not been adjusted to indicate RRA
    earnings or to reduce the previously reported SSA earnings. The total
    duplicate earnings were approximately $3 million.

    OI alerted RRB program officials of the error and recommended that
    they advise the Social Security Administration to remove the SSA
    earnings for the identified employees’ accounts. OI also directed the
    RRB to ensure that the duplicate earnings be removed from the
    agency’s computer systems.




                                  -29-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                            April 1 - September 30, 2001




                       Retirement Benefit Cases

      RRB retirement fraud typically involves the theft and fraudulent cashing of
      U.S. Treasury checks, or the illicit conversion of U.S. Treasury electronic
      fund transfers, by someone other than the authorized RRB annuitant. During
      this reporting period, OI obtained 12 convictions and five civil judgements
      for retirement fraud. Defendants received 9b years imprisonment, 21½
      years probation, five years suspended sentences, six months house arrest,
      200 hours of community service, and were ordered to pay $440,713 in
      restitution, $1,340 in fines and $81,898 in damages. The RRB will recover
      $93,314 in overpayments from OIG investigations.

Examples of recent retirement cases follow.

•        Based on a referral from a police detective, OI initiated an investigation
         of a representative payee, a brother authorized to negotiate RRB benefit
         checks on behalf of his sister. The investigation found that the subject
         and his wife had negotiated RRB annuity checks intended for the benefit
         of his sister. The subject was indicted for forcible sexual abuse and
         exploitation of a disabled or elder adult. His wife was also indicted on
         the exploitation charge. He pleaded guilty and was sentenced to five
         years in prison to run concurrently with a recent drug conviction and
         ordered to pay restitution of $101,639 plus interest to his sister. His
         wife was sentenced to 180 days in jail and ordered to pay restitution of
         $5,615 plus interest to the sister. The amount of RRB benefits included
         in the restitution totaled $20,647 that will be paid to the sister.


                                       -30-
          Railroad Retirement Board-Office of Inspector General
                   Semiannual Report to the Congress
                       April 1 - September 30, 2001




•   OI opened an investigation after receiving a referral from the RRB
    concerning possible fraud by a spouse annuitant. Investigation showed
    that the subject had certified that she was caring for the child of a
    railroad employee. However, agents determined that the child was, in
    fact, in the custody of the State of Oregon. Between May 1994 and
    February 1998, the claimant had fraudulently received $48,223 in
    benefits to which she was not entitled. She was subsequently convicted
    for violation of Title 45, U.S.C. Section 231(l)(a), willfully and knowingly
    failed to make a report required by the RRB, and was sentenced to one
    year imprisonment, 12 months supervised release, and ordered to
    make restitution of $48,223 to the RRB.

•   When an RRB annuitant reaches 100 years of age, the applicable RRB
    District Office delivers a centenarian letter to the annuitant. On this
    occasion, RRB personnel were informed upon their arrival that the
    annuitant had just passed away. Further research identified the actual
    date of death occurred in 1988. The annuitant’s nephew, the legal
    guardian, continued to use his aunt’s benefits which were deposited
    electronically in her bank account. His actions resulted in the theft of
    $178,553 in RRB retirement benefits.

    The subject admitted to illegally using the RRB funds and agreed to
    make full restitution to the RRB. He was sentenced to 12 months home
    detention and supervised release for a period of three years. He was
    also ordered to pay for the home monitoring.




                                   -31-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




          Unemployment and Sickness Insurance Cases

Unemployment Insurance (UI) and Sickness Insurance (SI) benefit fraud involves
individuals claiming and receiving UI or SI benefits while working and receiving
wages from an employer, in violation of Federal law. The primary source of UI/SI
fraud cases remains state computer matching programs that compare RRB
beneficiaries with individuals for whom wages have been reported.

During this reporting period, OI obtained 16 convictions and 21 civil judgements
for UI and SI fraud. Defendants in these cases received, in the aggregate, two
years and five months imprisonment, 30½ years probation, and 2b years
suspended sentences. They were ordered to pay $81,183 in restitution, $67,347
in damages, $225 in fines, $198,865 in civil penalties and to perform 230 hours of
community service. The RRB will also be able to recover an additional $43,801
as a result of OI investigations.

Examples of typical cases involving individuals fraudulently receiving
unemployment or sickness insurance benefits follow.

•        A referral from the RRB’s Sickness and Unemployment Benefits
         Division (SUBD) indicated that a claimant received benefits in the same
         calendar quarter when she was employed as a cashier in a jewelry
         store. OI’s investigation determined that the claimant falsely received
         $9,084 in sickness insurance benefits.




                                        -32-
          Railroad Retirement Board-Office of Inspector General
                   Semiannual Report to the Congress
                       April 1 - September 30, 2001




    The subject entered into a pre-trial diversion agreement for violations of
    18 U.S.C. Section 641, Theft of Public Money. She received two years
    supervision and is required to make full restitution to the RRB.

•   Another SUBD referral revealed a claimant who fraudulently collected
    sickness insurance benefits while employed at a liquor store. This
    particular individual had previously been arrested and/or convicted of
    conspiracy, assault in the 3 rd degree, disorderly conduct, patronizing a
    prostitute, failure to submit to fingerprints, loitering, theft and burglary.
    The claimant submitted 23 false claims to the RRB, resulting in the theft
    of $6,432 in sickness insurance benefits.

    The subject signed a settlement agreement and voluntary wage
    attachment consent for a violation of Title 31, U.S.C. Section 3729,
    False Claims Act, and is required to make full restitution to the RRB.

•   A State of Florida wage match identified an individual who was working
    as a longshoreman while collecting RRB issued unemployment and
    sickness insurance benefits. He submitted 22 false claims and two
    false statements, resulting in the theft of $4,922.

    The subject was convicted for submitting false claims and paid
    restitution totaling $10,120 to the RRB, representing the original
    overpayment amount and $5,198 in administrative penalties. He
    entered into a pre-trial diversion and was ordered to perform 50 hours of
    community service and was placed on probation for 18 months.




                                    -33-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




                               Disability Cases

The OIG also conducts fraud investigations relating to the RRB's disability
program, which typically involves larger financial amounts and more sophisticated
schemes. During this reporting period, OI obtained three civil judgements for
disability fraud. Defendants in these cases were ordered to pay $93,552. An
additional $16,659 in overpayments will be recovered as a result of OI
investigations concerning disability fraud cases.

Examples of disability cases follow.



•      OI initiated another investigation of a disability annuitant based on a
       referred from the agency’s Disability Benefits Division. The initial
       allegations indicated that the individual had received earnings in excess of
       the RRB’s disability earnings restrictions, and had also failed to notify the
       RRB of his employment. Between 1996 and 1998, the claimant had falsely
       received disability benefits, resulting in the theft of $18,668 in RRB
       disability benefits.

       A Consent Judgement was entered against the individual for a violation of
       Title 31, U.S.C. Section 3729 through 3733, False Claims Act, and the
       claimant was ordered to make full restitution to the RRB.




                                        -34-
             Railroad Retirement Board-Office of Inspector General
                      Semiannual Report to the Congress
                          April 1 - September 30, 2001




•   Based on an anonymous referral, OI conducted an investigation of another
    RRB disability annuitant. The referral indicated that the annuitant had
    collected disability benefits while working as an electrician. OI’s
    investigation revealed the claimant had used his wife’s social security
    number and had earned in excess of his disability earnings restrictions
    from 1992-1995. The annuitant had falsely collected $56,884 in disability
    benefits.

.   The annuitant entered into a consent judgement in U.S. District Court and
    agreed to repay the entire $56,884.




                                     -35-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




AFFIRMATIVE CIVIL ENFORCEMENT (ACE) PROGRAM

OI continues to pursue prosecution of cases under the Department of Justice's
Affirmative Civil Enforcement Program. This program involves "fast track" civil
prosecution of cases under the provisions of the Title 31, U. S. Code, Sections
3729-3733, The Civil False Claims Act. This statute allows the government to
recover up to triple damages as well as $5,000 to $10,000 for each false claim
submitted.
.
During this reporting period, a total of 26 civil judgements under the ACE program
were entered by Federal district courts which will result in the return of $362,227
to the government when the funds are collected.

The Department of Justice is frequently obtaining double damages through these
civil false claims prosecutions. The judgements obtained in these cases also
provide the agency with an efficient and effective basis to pursue their collection
activities.

The ACE Program continues to provide an efficient means to address fraud
against agency programs, particularly where the fraud losses are below the
financial guidelines for criminal prosecution. It also is an effective way to return
fraud losses to the RRB's trust funds and create a deterrent against future fraud.




                                         -36-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                                April 1 - September 30, 2001




                                     HOTLINE CALLS



The Office of Inspector General established its Hotline to receive complaints
concerning suspected fraud, waste and abuse in RRB programs and operations.
The Hotline provides an open line of communication for individuals who desire to
report suspected criminal activity, conflict of interest, mismanagement, and waste
of RRB funds.


                                                                           04/01/01 -
                                                                           09/30/01


 Total Contacts: (Telephone Calls and Letters)                                  639


 Referred to: RRB-OIG, Office of Investigations                                  45
                           Office of Audit                                        0


 RRB Bureaus/Offices                                                            382


 Other Federal Agencies                                                          17


 RRB Medicare Carrier/Durable Medical Equipment
 Regional Carriers                                                                5


 Other (misdirected calls, follow up calls to agents , etc.)                    190




                                                -37-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                            April 1 - September 30, 2001




LEGISLATIVE & REGULATORY REVIEW

The Inspector General Act requires the Inspector General to review existing and
proposed legislation and regulations relating to the programs and operations of
the agency and to make recommendations in the semiannual report concerning
the impact on the economy and efficiency of the agency’s administration of its
programs and on the prevention of fraud and abuse.

Review of proposed legislation is discussed on page 4.




                                       -38-
                Railroad Retirement Board-Office of Inspector General
                         Semiannual Report to the Congress
                             April 1 - September 30, 2001




APPENDIX A - OIG REPORTS ISSUED

P Review of Internal Control Over Financial Accounting for Obligations,
  Expenditures and Accounts Payable, April 6, 2001

P External Quality Assurance Review of the Corporation for National Service,
  Office of Inspector General, April 26, 2001

P Management Information Report - Reinvention 2001, May 25, 2001

P Review of the Railroad Retirement Board’s Document Imaging Initiative for
  Railroad Retirement Act Programs, June 5, 2001

P Management Information Report - Timeliness of Desk Audit and Vacancy
  Announcement Processing by the Bureau of Human Resources, June 28, 2001


P Site Security Assessment, July 20, 2001

P Management Information Report - Railroad Retirement Act Program Debt
  Recognition and Collection Experience, July 26, 2001

P Review of the Railroad Retirement Board’s Contract with Comprehensive
  Health Service, Inc. for Disability Examination Services, August 7, 2001

P Review of the Quality of the Debt Recognition and Collection Process for
  Railroad Retirement Act Overpayments, August 9, 2001




                                        -39-
               Railroad Retirement Board-Office of Inspector General
                        Semiannual Report to the Congress
                            April 1 - September 30, 2001




P Review of the Railroad Retirement Board’s Handling of the Payment Rate
  Entitlement History System’s Relational Edits, August 9, 2001

P Security Control Analysis, August 17, 2001

P Monitoring of the Railroad Retirement Board’s Planning for Possible
  Legislative Changes, August 30, 2001

P Review of the Railroad Retirement Board’s Cost of Living Mass Adjustment
  Process, August 31, 2001

P Review of Separation Allowance Disqualification Periods,
  September 20, 2001




                                       -40-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                                 April 1 - September 30, 2001




APPENDIX B

                INSPECTOR GENERAL ISSUED REPORTS
                      WITH QUESTIONED COSTS
                                            Number       Questioned         Unsupported
                                                           Costs               Costs


A. For which no management decision
had been made by by April 1, 2001             0               0                  0


B. Which were issued from April 1, 2001       0               0                  0
through September 30, 2001


Subtotals (A + B)                             0               0                  0


C. For which a management decision
was made from April 1, 2001 through
September 30, 2001                            0               0                  0


(i) dollar value of disallowed costs                          0                  0


(ii) dollar value of costs not disallowed                     0                  0


D. For which no management decision
had been made by September 30, 2001           0                                  0


Reports for which no management
decision was made within six months of
issuance                                      0                                  0




                                            -41-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                                 April 1 - September 30, 2001




               INSPECTOR GENERAL ISSUED REPORTS
                  WITH RECOMMENDATIONS THAT
                   FUNDS BE PUT TO BETTER USE
                                                       Number           Dollar Value


A. For which no management decision had been
made by April 1, 2001                                    0


B. Which were issued from April 1, 2001 through
September 30, 2001                                       1                  $ 520,000


Subtotals (A + B)                                        1                  $ 520,000


C. For which a management decision was made
from April 1, 2001 through September 30, 2001            0


(i) dollar value of recommendations that were
agreed to by management                                                        0


(ii) dollar value of recommendations that were not
agreed to by management                                                        0


D. For which no management
decision had been made by
September 30, 2001                                       1                  $ 520,000


Reports for which no
management decision was made
within six months of issuance                            0



                                                -42-
                     Railroad Retirement Board-Office of Inspector General
                              Semiannual Report to the Congress
                                  April 1 - September 30, 2001




APPENDIX C - REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES

The FY 1999 appropriations language for this office requires the reporting of
additional information concerning actual collections, offsets and funds put to better use
achieved as a result of Inspector General activities. Figures are to be provided for each
semiannual period and as a cumulative number.

Office of Audit

             Funds to be put    Funds Agreed by      Receivables                        Recoveries
 Report       to better use      Management          Established          Waivers         to Date

 99-03      $      50,850       $     50,850         $ 50,850             $50,490      $    360
 99-14      $      83,000       $     83,000*        $ 34,423                          $ 30,584

 99-16      $48,000,000         $48,000,000

 99-17      $11,000,000         $11,000,000

 00-16      $     235,000       $     235,000                                          $253,846**
* This figure includes monies owed to the agency and overpayments which must be refunded.
**This figure represents returned payments credited to debtor accounts.


Office of Investigations


Recoveries realized by the RRB resulting from court ordered restitution and civil damages


October 1, 1998 - March 31, 1999:               $ 344,465
April 1, 1999 - September 30, 1999:             $ 511,190
October 1, 1999 - March 31, 2000:               $ 495,402
April 1, 2000 - September 30, 2000              $ 542,732
October 1, 2000 - March 31, 2001                $ 457,015
April 1, 2001 - September 30, 2001              $ 533,341




                                                 -43-
                       Railroad Retirement Board-Office of Inspector General
                                Semiannual Report to the Congress
                                    April 1 - September 30, 2001




APPENDIX D - RRB MANAGEMENT REPORTS*
(The information contained in this section has been provided by RRB management.)


                  MANAGEMENT REPORT ON FINAL ACTION
                  ON AUDITS WITH DISALLOWED COSTS FOR
             THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2001

                                                       Number of Audit Reports   Disallowed costs

 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                         0                      0

 B. Audit reports on which management
 decisions were made during the period.                           0                      0

 C. Total audit reports pending final action
 during the period. (A + B)                                       0                      0


 D. Audit reports on which final action was
 taken during the period.

 1. Recoveries

 (a) Collections and offsets                                      0                      0

 (b) Property                                                     0                      0

 (c) Other                                                        0                      0

 2. Write-offs                                                    0                      0

 3. Total of 1 and 2                                              0                      0


 E. Audit reports needing final action at the end
 of the period (C - D.3)                                          0                      0




                                                    -44-
                       Railroad Retirement Board-Office of Inspector General
                                Semiannual Report to the Congress
                                    April 1 - September 30, 2001




          MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
        WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
        FOR THE SIX MONTH PERIOD ENDING SEPTEMBER 30, 2001
                                                    Number of             Funds to be put to better use
                                                    Reports

 A. Audit reports, with management decisions,
 on which final action had not been taken at the
 beginning of the period.                                    3                    $ 58,894,380
                                                                                (See note below)

 B. Audit reports on which management
 decisions were made during the period.                      0                          0

 C. Total audit reports pending final action
 during the period. (A+ B)                                   3                    $ 58,984,380


 D. Audit reports on which final action was
 taken during the period.                                    0                          0

 1. Value of recommendations implemented
 (completed)                                                 0                          0

 2. Value of recommendations that
 management concluded should not or could
 not be implemented (completed)                              0                          0

 3. Total of 1 and 2                                         0                          0


 E. Audit reports needing final action
 at the end of the period (C - D.3)                          3                    $ 58,984,380



*Comprised of the following amounts: $48,000,000 from Audit Report 99-16, “Financial Interchange:
Status of Prior Recommendations for Change;” $10,606,200 from Audit Report 99-17, “Review of
Supplemental Annuities;” and $378,180 from Audit Report 00-12, “Review of Tier 1 Reductions for
Other Disability Benefits.” The last figure represents combined over- and underpayments from
individual case adjustments, as the report itself did not provide a specific estimate of the financial
impact.




                                                   -45-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                                April 1 - September 30, 2001




      MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
      OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                  AS OF SEPTEMBER 30, 2001
                                               Funds to
                                  Disallowed   be put to
       Report            Date       Costs      better use   Reason action is not completed


Review of Initial      09/20/96     None          None      A new computer system,
Claims Processing                                           scheduled for development in
(96-15)                                                     fiscal year 2002, for processing
                                                            initial benefit applications will
                                                            address measurement of
                                                            processing time.

Review of Quality      01/22/97     None          None      The remaining recommendation
Assurance Activities                                        will be addressed as the agency
(97-06)                                                     develops a long-term quality
                                                            assurance plan over the next year.

Review of Non-         03/13/97     None          None      The Office of Programs is
Priority                                                    continuing to evaluate options for
Correspondence                                              correspondence tracking,
Handling (97-09)                                            including the agency’s imaging
                                                            system and PC-based
                                                            applications.

Review of Duplicate    07/31/97     None          None      Needed programming changes to
Postings of Railroad                                        suppress duplicate earnings
Compensation                                                referrals are scheduled for
(97-19)                                                     completion in Fiscal Year 2002.

Review of              08/25/97     None          None      While system changes were
Overpayments-SSA                                            made to automate non-death
Transfer Cases                                              termination cases, preliminary
(97-22)                                                     tests revealed the need for added
                                                            programming, currently underway.

Vested Dual Benefits   06/16/98     None          None      The agency will review the
Appropriations                                              feasibility of benefit component
(98-15)                                                     accounting as it upgrades or
                                                            replaces legacy processing
                                                            systems.



                                           -46-
                  Railroad Retirement Board-Office of Inspector General
                           Semiannual Report to the Congress
                               April 1 - September 30, 2001




      MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
      OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                  AS OF SEPTEMBER 30, 2001
                                                     Funds to be
                                    Disallowed          put to
       Report              Date        Costs          better use   Reason action is not completed

Review of the            09/30/98      None             None       Necessary programming
Accuracy of Vested                                                 changes have been requested
Dual Benefits                                                      to ensure processing systems
(98-23)                                                            exclude erroneous data.

Review of Computer       02/12/99      None             None       A contractor is reviewing agency
Problem and Change                                                 help desk procedures, and
Management Process                                                 identified improvements should
(99-05)                                                            be in place early in Fiscal Year
                                                                   2002.

Management               03/24/99      None             None       The Office of Programs
Information Report -                                               addressed the remaining
Payment and Case                                                   recommendation in its plans for
Accuracy Issues                                                    quality assurance studies
Related to the                                                     conducted during Fiscal Year
Financial Statement                                                2002.
Audit (99-07)

Review of Railroad       09/21/99      None             None       The agency hopes to complete
Unemployment                                                       needed programming changes
Insurance Act                                                      to automate the reconciliation
Contributions (99-14)                                              process for unemployment
                                                                   insurance reports/payments in
                                                                   Fiscal Year 2002.

Financial Interchange:   09/28/99      None          48,000,000    The agency reviewed a sample
Status of Prior                                                    of overpayment cases and will
Recommendations                                                    approach the Social Security
for Change (99-16)                                                 Administration about revising
                                                                   the methodology for handling
                                                                   such cases.




                                              -47-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                                 April 1 - September 30, 2001




      MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
      OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                  AS OF SEPTEMBER 30, 2001
                                                       Funds to be
                                   Disallowed             put to
       Report             Date        Costs             better use   Reason action is not completed

Review of               09/30/99      None         10,606,200        The agency is awaiting OMB
Supplemental                                                         approval of a notice to railroad
Annuities (99-17)                                                    employers seeking to verify
                                                                     private pension information,
                                                                     while work continues on
                                                                     reviewing over 11,000 cases
                                                                     identified as needing
                                                                     adjustment.

Review of Internal      10/05/99      None               None        The agency purchased new
Controls Over Fixed                                                  software to improve its fixed
Assets (00-01)                                                       asset tracking system and is in
                                                                     the process of installing it.

Review of the           04/25/00      None               None        The agency published a notice
Assessment of                                                        of proposed rulemaking to
Interest, Penalties,                                                 correct the identified
and Administrative                                                   discrepancy in the Federal
Charges on Benefit                                                   Register on September 5, 2001.
Overpayments
 (00-09)

Review of Financial     05/30/00      None               None        The remaining item will be
Statement Reporting                                                  addressed as part of the next
for the Financial                                                    annual financial statement
Interchange (00-11)                                                  audit.

Information Systems     06/28/00      None               None        The agency implemented four
Security (INFOSEC)                                                   report recommendations in
Assessment Report                                                    Fiscal Year 2001. The
                                                                     remaining six will be addressed
                                                                     after a security officer position is
                                                                     filled early in Fiscal Year 2002.




                                                -48-
                    Railroad Retirement Board-Office of Inspector General
                             Semiannual Report to the Congress
                                 April 1 - September 30, 2001




       MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
       OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                    AS OF SEPTEMBER 30, 2001
                                                     Funds to be
                                     Disallowed         put to
        Report            Date          Costs         better use   Reason action is not completed

Review of Tier 1          08/04/00      None             None      The agency is reviewing cases in
Reductions for Other                                               which other benefits may have
Disability Benefits                                                been received, with an April 30,
(00-12)                                                            2002 target completion date.

Review of the RRB’s       08/09/00      None             None      The agency completed a
Compliance with the                                                preliminary update of computer
Critical Infrastructure                                            security plans in Fiscal Year
Assurance Program                                                  2001, and will update them
(00-13)                                                            again in Fiscal Year 2002.

Review of the             08/11/00      None             None      Programming changes were
Processing of                                                      made with respect to processing
Automated                                                          representative payee referrals,
Receivables,                                                       but testing indicated the need for
Reclamations and                                                   additional modifications.
Credits (ARRC)
System Referrals
(00-14)

Review of                 09/06/00      None             None      Corrective action on the
Information                                                        remaining recommendation
Technology                                                         should be completed early in
Contracts (00-15)                                                  Fiscal Year 2002.

Review of Internal        09/29/00      None             None      Management closed nine
Control Over                                                       recommendations from this
Financial Accounting                                               report in Fiscal Year 2001.
for Debt Recoveries                                                Corrective action on the three
(00-16)                                                            remaining recommendations
                                                                   should be completed in Fiscal
                                                                   Year 2002.




                                                  -49-
                   Railroad Retirement Board-Office of Inspector General
                            Semiannual Report to the Congress
                                April 1 - September 30, 2001




APPENDIX E - REPORTING REQUIREMENTS
Inspector General Requirements                                                               Page


Section 4(a)(2) - Review of Legislation and Regulations                                          4
Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                 5
Section 5(a)(2) - Recommendations With Respect to Significant Problems,
  Abuses, and Deficiencies                                                                       5
Section 5(a)(3) - Prior Significant Recommendations Not Yet Implemented                      None
Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                   26
Section 5(a)(5) - Instances Where Information Was Refused                                    None
Section 5(a)(6) - List of Audit Reports                                                         39
Section 5(a)(7) - Summary of Each Significant Report                                             5
Section 5(a)(8) - Statistical Tables on Management Decisions on Questioned Costs                41
Section 5(a)(9) - Statistical Tables on Management Decisions on
  Recommendations That Funds Be Put to Better Use                                               42
Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old
  For Which No Management Decision Has Been Made                                             None
Section 5(a)(11) - Description and Explanation for Any Significant
  Revised Management Decision                                                                None
Section 5(a)(12) - Information on Any Significant Management Decisions
  With Which the Inspector General Disagrees                                                 None


Management Requirements


Section 5(b)(1) - Comments Deemed Appropriate                                    Transmittal Letter
Section 5(b)(2) - Statistical Table on Final Action on Disallowed Costs                         44
Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                  45
Section 5(b)(4) - Statement on Audit Reports With Final Action Pending                          46




                                                -50-
                  REPORT


           FRAUD, WASTE AND ABUSE




Call the OIG Hotline:
           800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: RRB-OIG Hotline Officer
       844 North Rush Street
       Chicago, IL 60611-2092
